   November 14, 2003




Acquisition


Purchase Card Use at the Space and
Naval Warfare Systems Command,
Information Technology Center,
New Orleans, Louisiana
(D-2004-016)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

APC                 Agency Program Coordinator
DFAS                Defense Finance and Accounting Service
GAO                 General Accounting Office
GCPC                Governmentwide Commercial Purchase Card Program
GSA                 General Services Administration
IG DoD              Inspector General of the Department of Defense
IOP                 Internal Operating Procedure
ITC                 Information Technology Center
JWOD                Javits-Wagner-O’Day
PMO                 Program Management Office
SPAWAR              Space and Naval Warfare Systems Command
         Office of the Inspector General of the Department of Defense
Report No. D-2004-016                                                 November 14, 2003
   Project No. D2002CK-0099

Purchase Card Use at the Space and Naval Warfare Systems Command,
      Information Technology Center, New Orleans, Louisiana

                                Executive Summary

Who Should Read This Report and Why? Policy makers, senior managers, purchase
card program managers, and purchase card users should read this report to help them
identify potential problem areas in their own purchase card programs. Information
contained in this report identifies some of the pitfalls of the purchase card program, some
of which have been identified program-wide. After reading this report, managers should
review their own purchase card programs and implement the appropriate
recommendations to strengthen their programs.

Background. This audit report is one in a series of reports that documents satisfaction of
the requirements in section 1007 of the FY 2003 National Defense Authorization Act that
the Inspector General of the Department of Defense perform periodic audits of purchase
card usage. The Space and Naval Warfare Systems Command, Information Technology
Center, New Orleans, Louisiana, is supported by 296 civilian and military personnel and
about 600 contractor personnel. The Information Technology Center has an annual
budget of about $51.2 million. The Information Technology Center received funds on a
reimbursable basis from the Defense Integrated Military Human Resources System
program, and the Navy Standard Integrated Personnel System program. The
Government-wide commercial purchase card was created to provide an efficient means
for Federal agencies to purchase goods and services directly from vendors. During
FY 2001, the Information Technology Center paid about $2.1 million and about
$2.6 million during FY 2002 via the purchase card for goods and services.

Results. Controls over purchase card use to reduce the risk of fraud, waste, and abuse
were not properly implemented, and were ignored by senior management at the New
Orleans Information Technology Center. Controls were not effective due to a lack of
management integrity, vacant key management positions, internal procedures not being
adopted, and management tools not being used effectively. Additionally, the purchase
card program was not organized to realize the intended benefits of the program; and
inappropriate spending continued in 2002 after Space and Naval Warfare Systems
Command Contracting and Office of the Inspector General of the Department of Defense
visits. As a result, approximately $1.1 million of Information Technology Center
purchases were questionable (doubt as to the mission need for these purchases), the
Government had an unnecessary monthly financial risk of $31 million because the
monthly cycle limit was $31 million more than needed, and the Information Technology
Center could save an additional $95,671 over a 5-year period if controls are
implemented. For details, see finding A.

The Information Technology Center also needed to improve controls over property
accountability. Specifically, at least $1.7 million of property was not recorded in the
property book, property was missing and went unreported, property was at individuals’
homes without adequate property passes, and pilferable property was inappropriately
Table of Contents

Executive Summary                                          i

Background                                                 1

Objectives                                                 3

Findings
     A. Purchase Card Use                                  4
     B. Property Accountability                           22

Appendixes
     A. Scope and Methodology                             30
         Management Control Program Review                30
         Prior Coverage                                   31
     B. Supply Pictures                                   32
     C. Shopping Trip Lists                               33
     D. Purchases Made at the Direction of the Director   36
     E. Pictures of Items not in Inventory                38
     F. Management Comments and Audit Response            40
     G. Report Distribution                               42

Management Comments
     Department of the Navy                               45
Background
    Section 1007, “Improvements in Purchase Card Management,” of the National
    Defense Authorization Act for Fiscal Year 2003 (Public Law 107-314,
    December 2, 2002), states:

           That the Inspector General of the Department of Defense . . . perform periodic
           audits to identify–

           (A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper cardholder transactions, such as purchases of
           prohibited items; and

           (C) categories of purchases that should be made by means other than purchase
           cards in order to better aggregate purchases and obtain lower prices.

    Information Technology Center. The Space and Naval Warfare Systems
    Command (SPAWAR) Information Technology Center (ITC) is located in
    New Orleans, Louisiana. The ITC is a subordinate activity of SPAWAR. The ITC
    is responsible for delivering integrated information management solutions and life-
    cycle support for supported DoD programs. The ITC is supported by 296 civilian
    and military personnel and about 600 contractor personnel. The ITC had an
    FY 2002 budget of $51.2 million. The ITC also receives funds on a reimbursable
    basis from the Defense Integrated Military Human Resources System program, and
    the Navy Standard Integrated Personnel System program.

    Federal Purchase Card Program. The first Government-wide purchase card
    contract was awarded by the General Services Administration (GSA) in 1989. DoD
    entered the program at that time. On October 13, 1994, the President issued
    Executive Order 12931 mandating increased use of purchase cards for micro-
    purchases (purchases under $2,500). The purchase card can be used to pay for
    goods and services up to a predetermined limit and for payments against contracts.
    GSA reports that the Government saves approximately $1.3 billion annually in
    administrative costs by using purchase cards. In addition, the program earned the
    Government refunds of $75 million in FY 2001 by paying for purchases promptly.
    Purchase Card Joint Program Management Office. The Deputy Secretary of
    Defense established the DoD Purchase Card Joint Program Management Office
    (PMO) in March 1998. The PMO is staffed with representatives from each of the
    Military Departments, the Defense Logistics Agency, and the Defense Finance and
    Accounting Service (DFAS). The PMO reports directly to the Director, Defense
    Procurement and Acquisition Policy, within the office of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics. Finance and accounting
    issues are coordinated with the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer.

    How the DoD Program Works. DoD organizations are responsible for
    distributing cards, training employees, and day-to-day management of the
    purchase card program. Each participating organization designates an office to
    manage the program and ensure training is provided, a current list of cardholders
    and approving officials is maintained, and an annual oversight review of the
    program is performed.


                                              1
DoD appointed agency program coordinators with the responsibility for program
management at the installation, major command, and Component levels. Agency
program coordinators issue purchase cards, establish limits on spending, and
monitor use of a purchase card account. Also, DoD employees are assigned as
“approving officials” to authorize and approve purchases for payment. Once a
cardholder makes an authorized purchase, the cardholder and the approving
official reconcile the purchased goods and services with the bank statement prior
to the approving official requesting payment by DFAS.

Information Technology Center Purchase Card Program. The ITC
Contracting Office is responsible for the ITC purchase card program. As of
July 8, 2002, the program consisted of an agency program coordinator located in
New Orleans; an approving official and three cardholders in New Orleans; an
approving official and two cardholders in Washington, D.C.; and an approving
official and a cardholder in Millington, Tennessee. During FY 2001, the ITC spent
approximately $2.1 million on goods and services via the purchase card, and
approximately $2.6 million in FY 2002.

Charge Card Task Force. On March 19, 2002, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer established a DoD Charge Card Task Force
to evaluate the Department’s purchase and travel card programs and to develop
recommendations for improvement. On June 27, 2002, the task force issued the
Department of Defense Charge Card Task Force Final Report. The task force
focused on management emphasis and organizational culture, compliance, and
process and workforce developments. The task force developed 25
recommendations to improve the Department’s charge card program.
Recommendations included increasing management emphasis and personal
accountability, and implementing improved management metrics; strengthening
internal controls and increasing the tools available to managers for enforcing those
controls; and enhancing the capability of the workforce to accomplish assigned
charge card responsibilities.

Standards of Conduct. In 1956, Congress enacted requirements of exemplary
conduct in section 5947, title 10, United States Code, stating that commanding
officers and others in authority in the Naval service should be a good example of
virtue, honor, patriotism, and subordination. In addition, persons in authority are
required to be vigilant in inspecting the conduct of all persons under their
command. Additionally, persons in authority are required to correct, according to
the laws and regulations, all persons whose conduct is inappropriate.

On January 20, 2001, the President issued a memorandum for the heads of
departments and agencies regarding standards of conduct. The President stated
that everyone who enters public service for the United States has a duty to the
American people to maintain the highest standards of integrity in Government.
The memorandum stated that employees should protect and conserve Federal
property and shall not use it for other than authorized activities. Additionally, it
stated that employees should endeavor to avoid any actions creating the
appearance that they are violating applicable law or the ethical standards in
applicable regulations.

On November 19, 2001, the President issued a memorandum for the heads of
departments and agencies regarding being dedicated to serving America. In the



                                       2
    memorandum, the President stated that we should always remember that every
    dollar we spend is the taxpayer’s money and that people worked hard to earn it,
    and we should spend it wisely and reluctantly.


Objectives
    Our objective was to evaluate the use of purchase cards and the controls over
    property accountability. See Appendix A for a discussion of the audit scope and
    methodology, management control issue, and prior coverage related to the audit
    objectives.




                                         3
           A. Purchase Card Use
           Controls over purchase card use to reduce the risk of fraud, waste, and
           abuse were not properly implemented, and were ignored by senior
           management at the New Orleans Information Technology Center.
           Controls were not effective due to a lack of management integrity, vacant
           key management positions, internal procedures not being adopted, and
           management tools not being used effectively. Additionally, the purchase
           card program was not organized to realize the intended benefits of the
           program; and inappropriate spending continued after Space and Naval
           Warfare Systems Command Contracting and Office of the Inspector
           General of the Department of Defense visits. As a result, approximately
           $1.1 million of Information Technology Center purchases were
           questionable, the Government had an unnecessary monthly financial risk
           of $31 million because the monthly cycle limit was $31 million more than
           needed, and the Information Technology Center could save an additional
           $95,671 over a 5-year period if controls are implemented.


Purchasing Controls
    Management Controls. Office of Management and Budget Circular No. A-123,
    “Management Accountability and Control,” revised June 21, 1995, states that
    management controls are the organization, policies, and procedures used to
    reasonably ensure that programs and resources are protected from fraud, waste,
    and mismanagement. The agency head must establish controls, and managers and
    employees must have personal integrity.

    Navy Policy. Navy purchase card policy was contained in Naval Supply
    Instruction 4200.94, “Department of Navy Policies and Procedures for the
    Implementation of the Governmentwide Commercial Purchase Card Program
    (GCPC),” June 29, 1999. Intentional use of the purchase card for other than
    official Government business will be considered an attempt to commit fraud
    against the U.S. Government and may result in immediate cancellation of an
    individual’s purchase card and further disciplinary action. The cardholder will be
    held personally liable to the Government for the amount of any non-Government
    transaction. Additionally, cardholders are to screen all requirements for their
    availability from statutory sources: Federal Prison Industries, the Javits-Wagner-
    O’Day (JWOD) program, and the Government Printing Office. The Instruction
    also provided a list of prohibited and special attention items such as business
    cards, coffee pots, refreshments, rental of commercial vehicles, luggage, plaques
    and other mementos as give-away items, and printing and duplication services.

    Current Navy policy exists in the form of Department of Navy eBusiness
    Operations Office Instruction 4200.1, “Department of Navy Policies and
    Procedures for the Operation and Management of the Government Commercial
    Purchase Card Program,” September 19, 2002. There is little change between the
    old and new policies.




                                        4
Purchases
    Controls over purchase card use to reduce the risk of fraud, waste, and abuse at the
    New Orleans Information Technology Center were not properly implemented, and
    were ignored by senior management. These controls included ensuring there was a
    valid Government need; purchasing from appropriate vendors; separating duties
    among the requestor, purchaser, and receiver of the goods; and effectively
    organizing the purchase card program to realize intended benefits and ensure proper
    funds control. In particular, purchases for senior ITC managers were not subject to
    these controls or purchase card policy. A review of 84 transactions (Table 1)
    showed that 74 transactions had the incorrect source of supply, 36 transactions were
    reasonable, 35 transactions were questionable, and 18 transactions were abusive.

                                               Table 1. Transactions Reviewed


                                                                  Number of Transactions*

             Transaction Type         Reviewed         Incorrect Source   Considered   Considered     Considered
                                                          of Supply       Reasonable   Questionable    Abusive

     Office Supplies                      25                 25              10             12            6

     Books                                 6                  6                 6
     Printing                              1                  1                                           1

     Maintenance                           9                  5                 9
     Computer Related                     21                 21                 2           19

     Miscellaneous                        22                 16                 9           4            11

     Total                                84                 74              36             35           18
     *Some transactions were in more than one category.




    Specifically, some items costing approximately $29,000 reflected management
    preferences rather than Government need; cell phone service plans budgeted at
    $18,205 for FY 2002 were not justified; no information technology acquisition
    plan was used to purchase over $785,000 in computers in FY 2002; and
    unnecessary office supplies were purchased for ITC managers and to support an
    unauthorized media production center, with an annual cost of $279,000.

    Management Preference and Non-Government Use Items. Management
    preference and non-Government use items were bought at the direction of the
    Director or senior ITC managers. Additionally, the Director and Deputy Director
    obtained some of these items in end of fiscal year shopping trips at the local
    Office Depot, costing the Department approximately $4,600. Purchases that
    appeared to have no mission need include the following.

           September 18, 2000, Shopping Trip. On September 18, 2000, the
    Director, Deputy Director, and a cardholder went to Office Depot to purchase
    approximately $2,400 in office supplies, instead of selecting supplies from the


                                                   5
ITC central supply. These items were delivered directly to the Director and
Deputy Director without going through central receiving. (Pictures of the central
supply room and the Director’s supply closet are located in Appendix B.)
Included in these “office supplies” were items that appeared to have no official
ITC use - such as two global positioning systems by Earth Mate costing about
$320, map software for the global positioning system costing about $50, and
Microsoft Windows ME operating system software costing about $50. The global
positioning systems and map software provide driving directions from one point
to another. However, most rental car agencies provide free local maps and
Internet sites provide detailed directions free of charge. ITC computers used
Windows NT as their standard operating system; therefore, Windows ME would
have been unnecessary for ITC computers. The cardholder did not question the
purchases because the Director approved them; however, the cardholder is
required to ensure that required sources are used and the Government receives the
best price regardless of the requester. Subsequent to the shopping trip, the
Director obtained a more expensive global position system, the Garmin Street
Pilot III, costing approximately $1,400. The Director justified purchasing the
latter global positioning system because he gets lost on travel. The Department
should not purchase software that the Government does not need, nor purchase
global positioning systems when driving directions can be obtained for free.
Also, the Department should not fund the purchase of personal preference office
supplies. See Appendix C for a list of items purchased.

        September 18, 2001, Shopping Trip. On September 18, 2001, the
Director and Deputy Director again went to Office Depot to select approximately
$2,200 in office supplies rather than use stock from the ITC central supply.
According to ITC personnel, the Director and Deputy Director selected items and
left them in a holding area at the store and then sent the cardholder to the store to
pay for the items and transport them to the ITC. This is the same cardholder from
the previous shopping trip. These items were delivered directly to the Director
and Deputy Director without going through central receiving. Included in these
“office supplies” were items that appeared to have no Government use such as
Quicken 2002 (personal finance software) costing about $60, luggage costing
about $700 (including a light green 25-inch Pullman and a matching wheeled
carry-on), and two cordless mice costing $120 (a regular mouse can be obtained
for under $20). The Director stated the Quicken software was purchased to
manage ITC projects; however, he stated it proved to be impractical and was
never used. The Quicken software and the matching green luggage could not be
located during our review. The Navy purchase card regulation prohibits the
purchase of luggage. See Appendix C for a list of items purchased.

        ITC Ribbon Cutting Ceremony. In May 1999, an ITC cardholder
purchased a $215 Brulot bowl as a gift for Secretary of Defense Cohen at the
direction of ITC managers. We found that the bowl purchase was part of $4,500
in unnecessary expenditures for the ITC ribbon cutting ceremony. The additional
expenditures could not be made with the purchase card; however, rather than
determining that the expenditures were inappropriate, ITC managers had the
purchases made via purchase order. Specifically, ITC managers approved renting
six vehicles to transport dignitaries for $1,000, renting a stage for $2,500, and
purchasing two cakes for $782. The Navy purchase card Instruction prohibits the
renting of vehicles, the purchase of gifts except in support of an employee
recognition program, and the purchase of refreshments except by Navy recruiters.
Washington Headquarters Services’ records indicate that Secretary of Defense


                                      6
Cohen accepted the bowl “so that the ITC management would not be
embarrassed.” We referred this information to our office of Departmental
Inquiries for further investigation. Departmental Inquiries declined to investigate,
stating that the matter did not warrant investigation as a matter of misconduct.

         Binoculars. The Director approved the purchase of 10 pairs of binoculars
costing a total of $1,990 with the purchase card. The Director stated that the
binoculars were purchased as a security measure after the Pentagon was attacked
and requests for additional security had been denied. Security personnel stated
that the binoculars were to be distributed to individuals that have offices on the
higher floors to check outside regularly over Lake Ponchartrain and the parking
lots to report any suspicious activity they may notice. However, the ITC has
security cameras positioned throughout the campus that are monitored 24 hours a
day, 7 days a week. The binoculars were not listed in inventory. We observed
one pair of the binoculars in the Director’s office, five pairs in the Director’s
private supply closet, one pair in the senior military advisor’s office, and three
pairs in security. A picture of the binoculars located in the Director’s office is
located in Appendix D.

        Bicycles. The Deputy Director approved the purchase of six bicycles,
with the purchase card, at a total cost of $2,393 in 1999 to transport documents
between the ITC and the University of New Orleans. The Director stated that ITC
interns from the University of New Orleans would use the bicycles to go from
class to work. However, the ITC does not have an intern program. Additionally,
we were told the bicycles were never used, and have been rendered unusable to
prevent potential theft of the bicycles. A picture of the bicycles is located in
Appendix D.

        Personal Art Framing. The Director requested the framing and matting
of a personal print, which cost approximately $55. The approval document
signed by the cardholder’s approving official contained no justification for the
purchase. We found the framed print in the Director’s office. The Director stated
that he recalled asking someone to get him a frame but did not know they would
go to all that trouble. He stated he would be happy to pay for the frame and
matting if that was improper. The Director should have ensured that his staff
knew that purchasing a gift (the framing of a personal item) was not allowed. A
picture of the framed print is located in Appendix D.

         Windows 98 Based Computers. In June 1999, the Director initiated the
purchase of two notebook computers for $5,500, which were subsequently
purchased via purchase order. However, documentation concerning the purchase
brings the Government need for these computers into question. The Director’s
son (not employed by the ITC) obtained a quote for the computers from a
commercial source. The quote sheet was forwarded to the Director. That same
day the Director ordered the computers to be purchased with the configuration
identified in the quote sheet, which specified Windows 98 as the operating
system. ITC personnel stated that Windows NT is the official operating system
used by the ITC. We could not determine how the two computers were being
used because they could not be located in the ITC inventory. The ITC Director
claimed that he lost one when he left it on a plane while traveling on business.

The agency program coordinator for the ITC stated that billing statements are
received from the bank in the mail and reviewed each month. After the funding


                                     7
information is added for each line item on the statement, the statement is sent to
DFAS for payment. However, the approving official did not question the items
purchased, and therefore did not hold the cardholders accountable for questionable
and abusive purchases.

SPAWAR should perform a review and initiate appropriate administrative actions
against the Director, Deputy Director, cardholder, approving official, and agency
program coordinator for the above inappropriate purchases. Additionally, the
Government should be reimbursed for the inappropriate items, and the items with
questionable mission use should be properly disposed of.

Cell Phone Purchases and Plans. ITC management allowed the purchase of cell
phones and cell phone service plans without justification or controls over the
usage. The annual budget for cell phone plans was $18,205; however, we could
not determine the actual cost. We tried to review the cell phone bill details for the
7-month period of September 2001 through April 2002. Based on 19 personnel
having phones, we should have been able to obtain the details of 133 phone bills.
However, only 36 phone bills were available for our review of the 7-month
period. Based on the phone bills that were available, we observed that the ITC
purchased high-minute cell phone plans and incurred large cell phone bills.
Personal calls were not always identified and reimbursed to the Government, as
shown in the following examples.

           •   The ITC has 19 personnel with Government-funded cell phone
               service plans ranging between 100 and 1,500 minutes (25 hours)
               costing between $24.95 and $149.99 per month for base fees. An
               additional charge is assessed for 14 of the phones for replacement
               insurance. The ITC lacked a policy for cell phone use and no
               justification was made for the service.

           •   One department head’s Government cell phone bill for 1 month was
               $507.58. The individual’s plan was for 350 minutes at a cost of
               $49.99. However, the individual used a total of 1,596 minutes
               (26.6 hours) and incurred an additional charge of $436.10. The
               individual reimbursed the Government $79.35 for 529 minutes
               (8.8 hours) identified as personal calls. However, a review of the
               numbers called indicated an additional 179 minutes of questionable
               calls that were not identified as personal and not reimbursed by the
               employee. Additionally, it is impossible to tell how many of the
               421 incoming minutes were personal minutes.

           •   One bill for September 2001 showed cell phone charges of $326.60
               for the business manager’s deputy, $246.09 for the business
               manager, and $188.18 for the Director. Individual phone numbers
               called were only available for the Director. We reviewed the
               Director’s calls for that month and found that the charges included
               calls to a golf course, and out-of-state calls that appeared to be
               personal. None of these calls were reimbursed.

           •   The Director did not reimburse the Government for any personal
               calls. However, a review of his records indicate that his calls
               included the Grand Casino of Biloxi, Mississippi; the Navy Federal



                                      8
                    Credit Union loan department; several golf courses; his children;
                    and the US Airways Chairman’s Preferred Personal Liaison.

               •    The Deputy Director made unreimbursed calls to his home, the US
                    Airways Dividend Miles Gold Club Preferred Reservations, and
                    other individual residences.

               •    The business manager made unreimbursed calls to her home,
                    family members’ homes, Our Lady of the Lake School, Chico’s,
                    and other individuals in her hometown.

The cardholder responsible for the accounts stated that cell phones are monitored
and the plan minutes increased when it appears that the individual is getting close
to using all the plan minutes on a monthly basis. Monitoring consisted of the cell
phone user voluntarily stating if any calls were personal in nature. Further,
increasing the number of minutes on the plan rewards cell phone abusers with
more minutes at the Department’s expense. The Director and Deputy Director
stated that cell phones are needed because they are considered to be on-call, but
provided no documentation to justify that claim. Additionally, the Director stated
that it is a well-established fact that businesses give out cell phones. The
Director’s perception that a private business gives out cell phones does not justify
spending DoD funds on an unnecessary service.

A cell phone policy should be implemented that requires that a documented and
valid mission need is established prior to cell phones being issued, and a
monitoring process to ensure that the Government cell phones are used for
Government business.

Computer Purchases. In FY 2002, ITC cardholders purchased computers and
computer equipment without the benefit of an acquisition plan. According to
bank records, ITC cardholders spent $785,5611 at computer equipment vendors.
We reviewed the documentation for 21 of these computer-related purchases
valued at $364,834. These items were purchased without regard for
standardization and without checking for a General Services Administration
(GSA) vendor. The ITC did not have a computer equipment acquisition plan that
allowed cardholders to check computer purchase requests for appropriateness, or
to be able to compare the request against the GSA schedule for the best price.
Additionally, the documentation did not indicate if the required computer
equipment was to replace old equipment or if it was for a new employee. As a
result, some individuals were responsible for numerous computers. For example,
the Director had signed for five laptop computers and three desktop computers, in
addition to three lost laptop computers. This also calls into question whether the
purchases were actually necessary. A responsible computer acquisition plan
should be developed and used to purchase appropriate computer equipment.

Office Supplies and Media Production Center. During FY 2002, the ITC
purchased approximately $21,049 from office supply vendors including $10,712
at catalog and retail merchants, one of which was Office Depot. A review of the

1
    This only includes purchases from merchants who identified themselves as sellers of computer
    products. Potential computer purchases from retailers such as Office Depot, which sells a
    multitude of items, are not included.



                                             9
documentation for 25 of these purchases valued at $12,441 showed purchases of
items such as:

           •   day planners and specialty refills,

           •   an electric hole punch,

           •   large plotter paper,

           •   print shop supplies and specialty paper, and

           •   binding combs.

Cardholders purchased all of the items without researching required sources. The
ITC has its own media production center, which uses the print shop supplies, the
binding combs, and specialty papers.

       Required Vendors. Cardholders at the ITC did not determine if requested
items were available from required vendors. For example, day planners are
available through JWOD and paper is available from GSA Advantage from either
JWOD vendors or other vendors on GSA contracts. Cardholders stated that the
requestor of the supplies usually suggests the vendor. However, various Federal
laws and regulations require procurement officials to acquire certain products
from designated sources. Additionally, in July 2002, SPAWAR Headquarters
personnel reminded ITC management that the proper sources of supply for cell
phones, office products, and information technology are JWOD vendors, Navy
blanket purchase agreements, current ITC contracts, GSA contract vehicles, and
DoD Enterprise Software Initiative contracts. However, purchases were made
without regard for required sources of supply even after the reminders. The
required source of supply should be used for all applicable purchases.

        Media Production Center. The ITC Director created his own media
production center in violation of DoD regulations. ITC personnel stated that the
mission of the media production center was to produce brochures, strategic
planning documents, proposals, briefs, customized animation, multimedia
displays, logos, posters, certificates, flyers, banners, parking passes, badges,
programs, agendas, scanning services, and matting and framing. DoD
Directive 5330.3 requires DoD Components to use the Document Automation and
Production Service for printing support. The Document Automation and
Production Service is available in New Orleans and at the other ITC office
locations. As part of the Systems Engineering and Security contract, the ITC is
provided personnel to run the media production center. We requested the
personnel costs for the Media Production Management Division and were
informed for FY 2003 the personnel costs budgeted were $279,000. The total
cost of the media production center was not available. In addition, bank records
indicate that the ITC paid approximately $31,000 for printing services from
commercial sources in FY 2002. The ITC Director defended the decision to
create the media production center because the staff works on his briefs until he
leaves on business trips. The ITC Director’s personal preference does not justify
the existence of an in-house media production center for these services. The
media production center should be discontinued and the assets disposed of
appropriately.



                                      10
Management Controls and Key Management Positions
    Purchase card controls were ignored or not implemented and senior managers
    displayed a lack of integrity by promoting abusive purchase card use. In addition,
    senior ITC managers did not:

           •   fill key management positions necessary to successfully implement the
               purchase card program,

           •   establish mandatory internal operating procedures,

           •   adequately reduce the organization’s cycle limit to reduce Government
               risk,

           •   use management tools such as the Citidirect purchase card
               management system to establish and monitor purchase card accounts,

           •   use stand down reviews effectively, and

           •   implement procedures necessary to reduce administrative purchase
               card costs.

    ITC Management. The Director, Deputy Director, and business manager
    promoted the abusive use of the purchase card to obtain goods and services
    without justifying a Government need. These managers allowed the purchase card
    program to function without establishing controls that would ensure purchases
    were necessary, from required sources, and not prohibited by regulation. These
    actions reflect a lack of respect for DoD funds they were entrusted to protect.
    Therefore, the Commander, SPAWAR should perform a review and initiate
    appropriate administrative action against the ITC senior managers for purchase
    card abuses and should ensure the following actions occur.

           •   Senior management shopping trips are discontinued and managers are
               required to use the same office supplies as other ITC employees.

           •   The cardholder that made the majority of the purchases on the
               shopping trips should have his purchase card privileges discontinued.

           •   The Director’s private supply room is closed and materials sent to
               central supply.

           •   Material without a valid Government need such as bicycles, global
               positioning systems, luggage, and binoculars are disposed of
               appropriately.

           •   The Director and Deputy Director should reimburse the Government
               for the cost of the personal items.

           •   A cell phone policy is implemented requiring that cell phone service
               must have a legitimate Government need, and not be a management
               preference. Cell phone service should be limited to those minutes
               necessary for Government business.



                                        11
       •   Computers and computer equipment are purchased based on an
           acquisition plan.

       •   Office supplies are obtained from required sources.

       •   The media production center is discontinued and assets disposed of
           appropriately.

       •   The purchase card program is structured to reduce administrative costs
           through the use of bulk funding.

Key Management Positions. Key management positions at the ITC were vacant.
These positions included a director of contracting, and a property book officer.
These positions are important to the correct implementation of the purchase card
program and the check and balance system to ensure that the program is working
properly.

        Director of Contracting. ITC management did not appoint a director of
contracting. The recruitment announcement for the director of contracting
position was approved on October 17, 2001. However, as of our visit in
July 2002, the position had not been filled. The director of contracting is
responsible for appointing an agency program coordinator to oversee the purchase
card program. The agency program coordinator selected by ITC management did
not implement controls to protect the purchase card program from fraud, waste,
and abuse. The Commander, SPAWAR should ensure that a director of
contracting is appointed, who will select and support an agency program
coordinator capable of implementing effective purchase card controls.

        Property Book Officer. ITC management did not appoint a property
book officer, who is part of the check and balance system of accounting for
property purchased by any method. During site visits at the ITC, we were
informed that the property book officer retired December 2001. During our
April 2002 site visit, the ITC was in the process of reorganizing to align the
property book officer position under the business manager. In December 2002,
the business manager informed us that a facilities/property management position
had been filled. The Navy Purchase Card Program Desk Guide requires
cardholders to inform the property book officer of any items purchased that are
classified as accountable property. Consequently, no controls were in place to
ensure that items obtained with the purchase card were properly recorded in
inventory. This issue is discussed in detail in finding B.

Internal Operating Procedures. The ITC had not adopted internal operating
procedures to ensure that only necessary supplies and services were purchased.
Consequently, ITC personnel made several unjustified purchases on shopping trips
and for a ribbon cutting ceremony, binoculars, bicycles, art framing, computers,
cell phones, and a media production center. ITC contracting personnel
created a draft operating procedure but did not implement it. However, the draft
procedure did not include specific operating procedures for the ITC, but rather
restated some information in Navy Supply Instruction 4200.94. The Commander,
SPAWAR must ensure that controls are implemented to ensure that ITC
management no longer wastes funds on unnecessary purchases. The Commander,




                                   12
SPAWAR must also put controls in place to ensure purchases are from required
vendors, the purchase card management system is used, and reviews are
conducted properly.

Management Controls and Tools. Management controls such as the
organizational cycle limit and management tools such as the Citidirect purchase
card management system and stand down reviews were not used effectively to
manage purchase card accounts.

        Organizational Cycle Limit. The ITC organizational cycle limit was
higher than needed, thereby increasing the risk to the Government that
unauthorized purchases could be made. The ITC FY 2002 cycle limit was about
$31.6 million per billing cycle. The bank suggests a factor of three to set the
spending limit to ensure that the customer has sufficient buying power. Since the
cycle limit is a multiple of three of the actual amount the organization can spend,
the ITC can spend up to $10,524,000 per month as shown in Table 2.

                     Table 2. Organization Cycle Limits
Account      Cycle Limit per     Spending Limit per     Total Dollar Value
             Month FY 2002       Month (Cycle Limit      of Purchases for
                                    Divided by 3)            FY 2002
 91177         $10,009,000                $3,336,333          $     1,565
 91176          10,014,000                 3,338,000                4,666
 91167                   0                         0                  295
 91166          11,549,000                 3,849,667            2,589,167
 Total         $31,572,000               $10,524,000          $2,595,693


According to bank records, the total expenditures via the purchase card for
FY 2002 were about $2.6 million. The agency program coordinator stated that
these limits were based on historical spending. However, as shown in Table 2,
the monthly spending limit is four times the FY 2002 purchases. The excessive
organizational cycle limits in conjunction with paper billing make it possible
through fraud or error for a cardholder to spend up to the monthly limit and not be
detected until a bill arrives and is reviewed. Reducing the organizational cycle
limit to a reasonable amount to cover average monthly purchases reduces the risk
to the Government. Reducing the ITC organizational cycle limit to $648,000
(average monthly spending of $216,000 times 3) per month would reduce the
potential Government liability by approximately $31 million per month.

        Purchase Card Management System. Personnel at the ITC did not use
the Citidirect purchase card management system to establish and monitor purchase
card accounts, or to electronically certify billing statements. During the audit, ITC
personnel could not tell the auditors the volume of current ITC purchase card
charges. The auditors were able to obtain the information directly from the
purchase card management system. The use of the bank system can also reduce
paper transaction costs from $17.13 to $6.96 per transaction. The ITC accounts
were established by sending a facsimile to the bank and maintained by calling in
changes to bank personnel. Billing statements were certified and mailed to DFAS
for payment. ITC purchase card personnel stated that Citidirect is not
used to make changes to the account information because there are not a lot of
changes, and it is not used to certify payments because SPAWAR is not in a hurry


                                     13
to get established for using Citidirect for billing certification. As a result, DFAS
was reimbursed at the higher rate. By implementing the use of the Citidirect
purchase card management system, the ITC will gain better oversight of the
purchase card program; reduce expenditures to DFAS by $10.17 per transaction;
and be able to pay bills quicker, eliminating the need to pay Prompt Payment Act
interest of $8,005 for FY 2002 or run the risk of having their purchase cards
suspended due to delinquencies. Therefore, the Commander, SPAWAR should
require that the Citidirect system be used as a tool to help manage the purchase
card program on a daily basis.

        Semiannual Reviews. The agency program coordinator at the ITC
conducted three semiannual reviews. The former coordinator performed reviews
for the transactions during the period December 1998 through July 1999 and
August 1999 through January 2000. Both of these reviews included a statement
that there was no identifiable misuse of the card; that adequate controls were in
place; cardholders were using purchase logs to document credit card purchases;
and all of the cardholders had the appropriate training and appointment letters.
The present coordinator performed a review for transactions during the period
February 2000 through August 2000. That assessment also included a statement
that no misuse of the card was identified, and that all of the cardholders had the
appropriate training and appointment letters. These reviews were ineffective as
we found abusive purchases, such as the bicycles that occurred in 1999.

         Annual Review. The current agency program coordinator conducted an
annual review for the period September 2000 through August 2001. This review
indicated that discrepancies were found. An attachment to the memorandum of
the review listed 17 items as discrepancies. These discrepancies included split
purchases (11), no authorization (2), itemized list of items purchased not in the
file (3), and request created after order (1). One of the items identified as not
listing what was purchased was also cited as being paid in advance without
explanation. However, the Office Depot shopping trip of September 18, 2000,
occurred during this time period and was not mentioned in the memorandum. An
administrative review should be initiated and appropriate action taken against the
agency program coordinator for not identifying and reporting the abusive
purchases.

         SPAWAR Inspection. On July 8, 2002, the SPAWAR Executive
Director for Contracts2 issued a memorandum, “Purchase Card Program
Inspection.” The memorandum was a result of an inspection to satisfy the
Purchase Card Exit Criteria Plan approved by DoD. The review was conducted at
the ITC during June 18-20, 2002. Although the review by SPAWAR found
several areas that needed additional management attention, it found the purchase
card program at the ITC to be satisfactory. However, the report contained 17
recommendations; 12 of which related to internal operating procedures, including
the lack of advance reservation of funds, the lack of independent receipt of goods,
and the failure to use proper sources. One recommendation was to adjust the
credit limits for four of the cardholders; however, that still left the monthly
spending limit four times higher than FY 2002 purchases.



2
    The Executive Director for Contracts is located at SPAWAR Headquarters in San Diego,
    California.



                                           14
        We identified problems with some of the statements intended as strengths
in the SPAWAR report. The SPAWAR report stated that the ITC appeared to
have a good process for recording all incoming material and maintaining property
control records for items meeting property accountability criteria. However, as
previously discussed in this finding, not all items purchased go through central
receiving. We also found items that were purchased with the purchase card that
were not bar coded and entered into inventory. The issue of property
accountability is addressed in finding B. However, the SPAWAR review was
more comprehensive than the agency program coordinator reviews and should be
continued until controls are adequate to assure that there is a low risk of fraud,
waste, and mismanagement in the purchase card program.

Purchase Card Administration. ITC management’s inadequate attention to
purchase card administration did not ensure proper use of DoD funds. Purchase
Card Reengineering Memorandum 3: Streamlined Financial Management
Procedures, March 27, 1997, and Change 1, June 30, 1997, issued by the Under
Secretary of Defense (Comptroller) requires the advance reservation of funds for
all purchases made using purchase cards in order to ensure positive funds control
and preclude expenditures from exceeding obligations. It also suggested that the
reservation of funds take the form of bulk commitments or bulk obligations.3 The
Federal Acquisition Regulation states that bulk funding is to be used to the
maximum extent practicable to reduce processing time, handling, and
documentation. Bulk funding is particularly appropriate if numerous purchases
using the same type of funds are to be made during a given period. However, ITC
management did not implement this control. The ITC submitted purchase card
statements to DFAS for payment based on individual lines of accounting for each
transaction on the billing statement. Consequently, in FY 2001, DFAS billed the
ITC for 1,153 transactions at $17.13 per transaction for a total cost of $19,751;
and could bill the ITC for 651 transactions for FY 20024 at a cost of about
$11,152. If the ITC used bulk funding, DFAS would have billed the ITC for 36
transactions at $17.13 for a total cost of $617. Therefore, the ITC unnecessarily
paid an additional $19,134 for credit card administration costs in FY 2001 and
$10,535 in FY 2002. The ITC also incurred interest penalties of approximately
$13,000 because funding was inadequate. The ITC could pay approximately
$95,671 in a 5-year period for excessive credit card administration costs if
controls are not implemented. The ITC should reorganize the purchase card
program to take advantage of bulk funding.

Spending Habits Continued. The spending habits of the ITC cardholders had not
changed since our visits to the ITC in April and July 2002. During the July visit,
we discussed purchases and mandatory sources of supply with cardholders.
Additionally, we provided Web site addresses for GSA Advantage and JWOD
vendors including the local Lighthouse for the Blind. Additionally, in a
July 8, 2002, memorandum, the SPAWAR Executive Director of Contracts
instructed ITC personnel to buy from approved sources. However, a review of the

3
    Also referred to as “bulk funding.” The Federal Acquisition Regulation Part 13, Simplified
    Acquisition Procedures, defines bulk funding as obligating funds on purchase documents against
    a specified lump sum of funds reserved for the purpose for a specified period of time rather than
    obtaining individual obligation authority on each purchase document.
4
    FY 2002 is a partial year because use of the purchase card was suspended from March 2002 to
    July 2002.



                                             15
    bank’s account activity records for July 20, 2002, through September 30, 2002,
    showed that only 1 purchase had been made from the JWOD Web site, but that 20
    purchases had been made from Office Depot and other office supply stores. The
    report also showed that nine Internet orders were placed with Office Depot from
    September 17, 2002, to September 27, 2002. The cardholder that had paid for the
    previous shopping trips made eight of the purchases. Instead of spending close to
    the single purchase limit on one annual trip, the combined nine requests totaled
    about $8,204. ITC managers had increased inappropriate spending patterns after
    warnings from SPAWAR Headquarters and the Office of the Inspector General of
    the Department of Defense.

Conclusion
    The poor management of the purchase card program at the ITC needed
    improvement. Controls should be implemented and enforced regardless of the
    position of the employee initiating a purchase request. The Commander,
    SPAWAR should initiate a review and take appropriate actions against ITC
    personnel including the Director, Deputy Director, business manager, cardholders,
    approving officials, and agency program coordinator for making abusive
    purchases and not reporting the abuse.


Management Comments on Finding A and Audit Response
    A summary of management comments on finding A and our response are in
    Appendix F.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Commander, Space and Naval Warfare Systems
    Command:

    1. Initiate a review and take appropriate administrative actions against the
    Information Technology Center Director, Deputy Director, cardholder,
    approving official, and agency program coordinator for the inappropriate
    purchases made, and for the failure to ensure proper controls and use of the
    purchase cards.

    SPAWAR Comments. The Deputy Commander, SPAWAR concurred and stated
    they would initiate a review and take appropriate action in accordance with the
    results of the review. Subsequently, we were advised a review was completed.

    2. Require the Information Technology Center Director and Deputy
    Director to reimburse the Government for the inappropriate personal items
    purchased for their benefit.

    SPAWAR Comments. The Deputy Commander, SPAWAR partially concurred
    and stated that with the exception of the framing of the Director’s art print, for
    which he has reimbursed the Government $55.00, no other items were purchased


                                        16
for personal use. Unnecessary items have been or will be excessed to the Defense
Reutilization and Marketing Office or otherwise properly disposed of.

Audit Response. Actions taken meet the intent of the recommendation. No
further comments are required.

3. Require the Information Technology Center Director to close his personal
supply room and put the items in the central supply for general issue.

SPAWAR Comments. The Deputy Commander, SPAWAR partially concurred
and stated that all office supplies and equipment in the room referenced have been
returned to central supply inventory for general use; and all needed supplies will
be acquired via the central supply inventory process.

Audit Response. Actions taken meet the intent of the recommendations. No
further comments are required.

4. Dispose of items such as bicycles, global positioning systems, luggage,
binoculars, and personal software in a manner that results in the greatest
benefit to the Government.

SPAWAR Comments. The Deputy Commander, SPAWAR partially concurred
and stated that the bicycles, the global positioning systems, and binoculars have
been excessed via Defense Reutilization and Marketing Office. The luggage,
including computer carrying cases, were purchased to support frequent official
travel requiring the traveler(s) to bring computer equipment, multiple copies of
briefing material, and other items, but were not used for clothing (or any other
personal use). The various items, except for those damaged over time through
use, are in Information Technology Center-controlled spaces. The Quicken
software has been destroyed since it was determined not to have been useable.
The target completion date was July 31, 2003, for those actions not yet complete.

Audit Response. Actions taken meet the intent of the recommendations. No
further comments are required.

5. Implement a cell phone policy that requires:
       a. A Government need be established prior to the issuance of a cell
          phone.

       b. Personnel that receive cell phones to sign an agreement of
          understanding that the phone is for official Government use.

       c. A monitoring process to ensure that the cell phones are used for
          Government business.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and stated
that there is a written instruction in draft. All personnel with Government cell
phones are required to pay for personal calls. Periodic reviews of outgoing calls
will be conducted to ensure that payments are received for personal use. The




                                    17
Information Technology Center will be instructed to ensure that the pooled
minutes reflect only projected Government requirements. The target completion
date was July 31, 2003.

Audit Response. The actions taken in response to the recommendation are
commendable. However, the action did not address that a valid need exists for the
current cell phones and require personnel to sign an agreement of understanding
that the phones are for official Government use. An incomplete cell phone policy
leaves issues to interpretation that could lead to mismanagement or abuse of cell
phones. The Commander, SPAWAR should reconsider the recommendation and
provide comments to the final report.

6. Require the Information Technology Center to receive Space and Naval
Warfare Systems Command approval for each cell phone issued and to
reduce the number of minutes on cell phone plans to levels required for
Government business and to use the phones only for official business.

SPAWAR Comments. The Deputy Commander, SPAWAR partially concurred
and stated that it is not necessary that the Information Technology Center receive
SPAWAR approval for each cell phone issued to its employees. The Information
Technology Center Deputy Director undertook examining the variety and cost of
in-place plans and directed the cell phone contracts be combined and completed
for a common pool of minutes, thus significantly reducing costs. This contract
was put into place in October 2002.

Audit Response. The SPAWAR comments to this recommendation are
considered nonresponsive in that the entire recommendation was not addressed.
The intent of the recommendation was for SPAWAR to approve the number of
phones and job positions that should have the phones, as well as ensuring the
number of minutes were reduced to levels required for official Government
business. Therefore, the Commander, SPAWAR should reconsider this
recommendation and provide comments to the final report.

7. Initiate appropriate actions against the Information Technology Center
Director, Deputy Director, and business manager and require them to
reimburse the Government for personal cell phone calls made.

SPAWAR Comments. The Deputy Commander, SPAWAR partially concurred
and stated that the command had been advised that all 19 cell phone users have
reimbursed the Government for all personal calls. The Deputy Commander stated
that validation would be part of the review that would be initiated.

Audit Response. Action taken meets the intent of the recommendation. No
further comments are required.

8. Require the Information Technology Center to develop and receive
Headquarters, Space and Naval Warfare Systems Command approval of an
annual acquisition plan for computer equipment, and require all
Information Technology Center computer equipment purchases not on the
approved plan to receive separate Headquarters, Space and Naval Warfare
Systems Command approval.




                                    18
SPAWAR Comments. The Deputy Commander, SPAWAR partially concurred
and stated that the ITC coordinates all large computer purchases with SPAWAR’s
Chief Information Officer and agreed the Information Technology Center will
continue to work with the Chief Information Officer to determine the level of
review and approval required for small, repetitive purchases. This will be a
continuing requirement.

Audit Response. Action taken meets the intent of the recommendation. No
further comments are required.

9. Require cardholders at the Information Technology Center to order office
supplies from required sources such as Javits-Wagner-O’Day vendors, and
initiate appropriate action against cardholders, approving officials, and the
agency program coordinators that violate the requirement to make
purchases from required vendors.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and stated
that remedial training has been provided and any additional necessary action
would be addressed after completion of the management review that SPAWAR
would initiate.

10. Discontinue the funding and use of the media production center, and
properly dispose of media center assets.

SPAWAR Comments. The Deputy Commander, SPAWAR partially concurred
and stated that the media production center (renamed Documentation Support
Center to clarify its role) is used by every department within the Information
Technology Center as well as by its customers. The draft report implies that all
work done by the Documentation Support Center could and should be done by the
Document Automation and Production Service. This is not an accurate
conclusion. Most of the work involves such functions as content creation,
technical writing, brief preparation, and editing. Many items produced by the
Documentation Support Center represent one-time requirements with limited
copies, and/or extremely short turn-around requirements. The Information
Technology Center could not effectively function and complete its work in a
timely manner without the services provided by the Documentation Support
Center.

Audit Response. The command reply is not responsive. Renaming the media
production center to clarify its role does not address the recommendation to
discontinue the center. The media production center is in violation of current
DoD Directive 5330.3, and Navy purchase card regulations. The Commander,
SPAWAR should reconsider this recommendation and provide comments to the
final report.

11. Appoint a director of contracting, who will select and support an agency
program coordinator capable of implementing effective purchase card
controls.

Navy Comments. The Deputy Assistant Secretary of the Navy (Acquisition
Management) partially concurred and stated that the current level of contracting
at the Information Technology Center does not warrant a DP-IV (GS- 14/15
equivalent) position. However, to ensure that effective internal controls are in


                                    19
place, the agency program coordinator (APC) function will no longer be
performed by the contracts head. A new APC will be appointed by the
Commanding Officer and will report back through the appropriate management
chain to the Commanding Officer on the health of the purchase card program.

Audit Response. The action agreed to by the Deputy Assistant Secretary of the
Navy meets the intent of the recommendation.

12. Ensure that a property book officer is appointed, who will implement
effective controls over accountable property.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and stated
that the property manager was officially appointed “Property Book Officer” in
May 2003 with the responsibilities outlined in DoD Instruction 5000.64,
SECNAVINST 7230.10 (Series), and SPAWARINST 11016.2 (Series).

13. Require the Information Technology Center to develop and implement
internal operating procedures in accordance with Navy eBusiness Operations
Office Instruction 4200.1, “Department of Navy Policies and Procedures for
the Operation and Management of the Government Commercial Purchase
Card Program,” September 19, 2002. In addition to the instruction
requirements, the procedures should provide:

       a. A list of items that should not be purchased.

       b. Lists of required vendors for types of goods and services to be
       checked prior to making a purchase.

       c. Proper procedures for conducting reviews.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and stated
that the Information Technology Center is in the process of updating its Internal
Operating Procedures (IOP). Changes have been recommended to include the
review procedures in the SPAWAR Purchase Card Policy Guidance. SPAWAR
has also recommended that the specific procedures for the purchase of
Information Technology hardware and software, cell phones, Defense printing
services, and other items described as “special interest” in the SPAWAR guidance
should be included. The IOP will include the list of items that should not be
purchased as well as the mandatory sources to be considered. The IOP should be
signed by June 30, 2003. The Information Technology Center will provide
training on changes in the IOP and internal procedures and controls. Target
completion date was July 31, 2003.

14. Reduce the Information Technology Center’s purchase card cycle limit
to three times the average monthly purchase card spending amount.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and stated
that the cycle limits at the Information Technology Center have been continually
reduced in the past year through constant oversight by the SPAWAR level 3 APC.
The current cycle limits are now set at $890,000 per cycle limit. This is a
97 percent reduction in cycle limits. This change significantly reduces the risk to
the Government and allows adequate coverage for necessary purchases/payments
and approval.


                                    20
Audit Response. We consider the comments to this recommendation to be
partially responsive. While we agree that the limits have been reduced, we
believe that the limits can still be substantially reduced without affecting the
ability of the cardholders to perform their duties. The Citidirect Statistical
Summary Report for the July 2003 billing cycle reflected that the total monthly
cycle limit for the Information Technology Center was $3.7 million. In order for
the cycle limit to be reduced, in addition to actions taken, reductions need to be
made to the approving official accounts. The Commander, SPAWAR should
reconsider this recommendation and provide comments to the final report.

15. Perform periodic independent inspections of the Information Technology
Center purchases under the purchase card program until such time that the
controls are adequate to assure that there is a low risk of fraud, waste, and
mismanagement in the purchase card program.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and stated
that yearly independent reviews will continue. Monthly purchase card reviews are
performed by the Information Technology Center and forwarded to the level 3
APC for review. SPAWAR has developed metrics to measure the health of the
purchase card program. When deficiencies are noted, the level 3 APC works with
the site APC to develop remedies to the problems. This is a continuing
requirement.

16. Reorganize the purchase card program to take advantage of intended
benefits of the program. Specifically:

       a. Require the use of bulk funding as the method of advance
          reservation of funds for purchase card purchases.

       b. Require the use of the bank’s purchase card management system.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and stated
that the Information Technology Center Comptroller now creates bulk
commitment documents annually to support the purchase card. SPAWAR
Headquarters has been working with the APC and Comptroller at the Information
Technology Center to develop the process for bulk funding to meet the DoD
deadline of Citibank on-line certification and payment by September 2003. The
Commander, SPAWAR stated that the Information Technology Center has been
using the Citibank system to establish and monitor purchase card accounts. This
was verified during the May 2003 on-site inspection by the SPAWAR level 3
APC.

Monetary Benefits. The Deputy Commander, SPAWAR agreed that the
implementation of bulk funding would provide potential monetary savings over
the next 5 years of $90,000.




                                    21
           B. Property Accountability
           The ITC needed to improve controls over property accountability.
           Specifically, at least $1.7 million of property was not recorded in the
           property book, property was missing and went unreported, property was at
           individuals’ homes without adequate property passes, and pilferable
           property was inappropriately removed from the accountable records. This
           occurred in part because the ITC did not have a property book officer, and
           because of the lack of basic management accountability for DoD
           equipment and purchases. As a result, the ITC had no assurance that
           accountable property was accurately reflected on the property books and
           was protected from fraud, waste, and mismanagement.


Accountability Procedures
    SPAWAR Instruction 11016.2D, “Accountability for Plant and Minor Property,”
    February 4, 1992, established standard property management procedures for plant
    and minor property including pilferable property. The instruction defined minor
    property as property costing between $300 and $5,000, and all items considered
    classified, sensitive, or pilferable regardless of cost.

    The instruction recognized that property management has always been an
    important element of the management process. The instruction states that
    employees assigned property must sign for all property prior to possession, and
    notify the accountable property officer immediately of any location or
    accountability changes. A unique property control number is to be attached to all
    plant and minor property. Additionally, the instruction states that an inventory
    list would be provided to the employee assigned property to use as an informal
    inventory. The instruction also states that the acquisition, disposition, and
    transfer records shall be maintained in the property management reporting system.

    On August 13, 2002, DoD updated its property accountability requirements by
    issuing Department of Defense Instruction 5000.64, “Defense Property
    Accountability,” to provide a comprehensive framework for DoD property
    accountability policies, procedures, and practices. The Instruction assists DoD
    property managers, accounting and financial officers, and other officials in
    understanding their roles and responsibilities relating to property accountability.

Property Controls
    Property at the ITC was not properly controlled. Specifically, property valued at
    $1.7 million was not recorded in the property book, property was missing and
    went unreported, property was at individuals’ homes without adequate property
    passes, and pilferable property was inappropriately removed from the accountable
    records.

    Property Not Recorded. Not all property at the ITC had been recorded on the
    property book. Specifically, property transferred to the ITC had not been
    recorded, property records did not accurately reflect the actual location of the



                                         22
property or all property assigned to the individual, and not all items purchased
with the purchase card were tagged and entered in the property book.

        Transferred Property. Property received by the ITC as a result of a
property transfer had not been recorded on the property book. ITC personnel
provided our auditors with documentation that 750 pieces of audiovisual
equipment valued at over $1.7 million had not been added to the property book.
The ITC received property from the Navy Signal Command in February 2000
through a property transfer that was not recorded on the property book. A
statement in the documentation gave the reason for not including the items on the
property book as, “all items were not sighted so not recorded by inventory team.”
The individual that provided the documentation could not clarify the meaning of
the statement. However, we believe this statement to mean that the items were
not physically located, and therefore not included in the ITC inventory.

         Property Location. Property records did not accurately reflect the actual
location of the property, or all property assigned to the individual. A limited
review of property records for 151 items showed that 52 items reviewed were not
at the listed location recorded on the property records. The inventory listings
containing 151 pieces of equipment belonged to 14 individuals that either had a
cell phone, pager, or both. Only 4 of the 14 inventory listings had the cell phones
or pagers listed on the inventory records. A reverse check was performed by
selecting 17 additional pieces of equipment from various work areas and then
having ITC personnel search the property database in our presence to determine if
the items were on the property book. These items included televisions,
videocassette recorders, cell phones, and shredders. This review showed that
none of the items were on the property book. For example, the Director had a
television, video cassette recorder, backup drive, Altec Lancing speaker, and
Palm Pilot in his office that were not on his property listing or in the property
book.

        Property Tags. Not all items purchased with the purchase card were
tagged and entered in the property book. For example, a heater/air conditioner
unit and a portable generator (see Appendix D) purchased with the purchase card
were not on the property book, nor did they have property tags on them when
inspected. As discussed in finding A, the luggage, global positioning system, and
other items from the two shopping trips were delivered straight to the Director’s
office instead of to central supply. According to personnel in central supply, the
10 pairs of binoculars (discussed in finding A) were delivered to supply, and were
in the process of being tagged when the supply supervisor demanded the removal
of the property tag and the surrender of the binoculars to security personnel. All
Government property should be tagged and captured on the property book.

Property Missing. Property was missing from the ITC and was not reported
missing by the individual responsible for the property. A visual inspection of
equipment listed on inventory sheets from the ITC property accountability system
showed that equipment was missing from the ITC. The disposition of 27 of the
151 items selected could not be resolved. Items that could not be located
included laptops, printers, monitors, a television, and cell phones. Reasons
provided by some individuals for the missing equipment included:

   •   the property had been missing for some time, but just had not been
       reported;


                                    23
   •   the item had been turned in but just not taken off the inventory record;

   •   the item was turned in and the incorrect item was removed from the
       inventory listing; and

   •   the item was never received.

For example, the Director’s inventory listing indicated he should have a Robotics
personal digital assistant. However, at the time of our review, he had a Palm
Pilot. The Director stated that he originally had four personal digital assistants,
and turned in three, keeping only the Palm Pilot, but that the wrong item was
removed from the property listing. Employees should verify inventory listings
semiannually and use diligence in ensuring the listings remain accurate by
reporting changes as they occur.

Government Equipment at Homes. Property was at individuals’ homes without
adequate property passes. However, the ITC does not have a work at home
program established nor does it have plans to establish one. However, a property
pass log dated January 8, 2001, indicated that the ITC had 154 pieces of
equipment on loan to individuals. All of the property passes had expired.
Additionally, for 131 of the items, the property pass list did not indicate that the
item was returned to the ITC or if another property pass was issued.

During our inventory, the Director had Government equipment valued at about
$22,000 at his home. The equipment consisted of five laptops, a printer, two
monitors, a scanner, and two desktop computers. However, only two property
passes were issued, one for one desktop computer, one monitor, one printer, and
one scanner and another one for a laptop. The property passes for this equipment
expired on December 15, 2001, and December 20, 2001. The remainder of the
equipment (four laptops, one monitor, and one computer) had been
inappropriately removed from the ITC. The inappropriate removal of equipment
causes concern because the Director has also reported losing three laptops. The
Director stated that he needed equipment at home because 90 percent of his e-
mail is done at home or on a plane, and that he does a tremendous amount of work
at home at night because he is too busy during the day. All equipment should be
returned to the ITC and a proper inventory conducted.

Property Removed From the Property Book. Property was inappropriately
removed from the ITC property accountability system. When we questioned why
televisions, video cassette recorders, Palm Pilots, cell phones, and pagers were
not on the property books, supply personnel stated that property items valued at
$2,500 or lower were removed from the ITC property accountability system.
Personnel controlling the property accountability system in the absence of a
property book officer stated that they had received message traffic from the Chief
of Naval Operations, May 10, 2000, that stated property under $2,500 should not
be tracked in the property accountability system. The message actually stated that
assets that do not meet the accountability threshold of $2,500, but are considered
pilferable, should be tracked in the Defense Property Accountability System.
However, items such as cell phones, laptop computers, and other pilferable items
had been removed from the property book. When the matter was brought to the
attention of ITC management, a memorandum titled, “Reporting Pilferable
Personal Property” from the Commander Naval Reserve Force, May 24, 2001,
was provided that stated they were excluded from reporting pilferable personal


                                      24
    property in the Defense Property Accountability System. However, the ITC did
    not belong to the Naval Reserve Force when the property was removed from the
    accountable property system. SPAWAR Instruction 11016.2D, “Accountability
    for Plant and Minor Property,” February 4, 1992, states that pilferable property
    should be tracked on the property accountability system. The instruction defines
    pilferable property as property that is easily transportable, concealable, and
    convertible to personal use. The instruction listed examples of pilferable property
    as portable power tools, cameras, binoculars, and other material with an estimated
    useful life of 2 years or more. The setting of a policy to lose visibility of highly
    desirable items from the property accountability system casts doubts on the
    integrity of senior management at the ITC.


Accountable Property Officer
    The ITC did not have an accountable property officer. Department of Defense
    Instruction 5000.64, “Defense Property Accountability,” August 13, 2002, states
    that accountable property officers establish and maintain the records of a property
    accountability system, to include a complete trail of all transactions. It also states
    that the accountable property officer is to:

                •   monitor the acquisition, storage, utilization, transfer, and disposal
                    of property;

                •   ensure that property received and issued is properly identified; and

                •   evaluate culpability when property has been reported lost,
                    damaged, misused, or stolen; report and recommend appropriate
                    action, and assist in investigations, as required; and process
                    reports of survey according to established procedures.

    Since the ITC did not have a property accountability officer, these functions were
    either not performed or not performed correctly.


Reporting
    Cardholders did not report the purchase of accountable property; Missing, Lost,
    and Stolen Reports were either not prepared or not prepared properly; and the ITC
    had no assurance that accountable property was accurately reflected on the
    property books.

    Cardholder Purchases. Cardholders at the ITC did not report the purchase of
    accountable property to the property book officer. Property purchased with the
    purchase card, including computers, software, binoculars, a heater/air conditioner
    unit, a gas generator, luggage, global positioning systems, and cell phones, was
    not reported to the property book officer. Therefore, the property was not always
    received in central receiving, tagged, and recorded in the property book.

    Missing, Lost, and Stolen Reports. Missing, Lost, and Stolen Reports were not
    prepared, or not prepared properly.



                                          25
           Not Prepared. Missing, Lost, and Stolen Reports were not prepared for
    some equipment missing from the ITC. For the 27 items identified as missing,
    employees indicated that 23 of the items had been missing for some time but had
    not been reported as such. This reporting would have started the Missing, Lost,
    and Stolen Report process. If still missing, these items should be reported and a
    Missing, Lost, and Stolen Report prepared.

            Improperly Prepared. Missing, Lost, and Stolen Reports prepared for
    missing equipment at the ITC were not prepared properly. According to a
    memorandum and supporting documentation provided by ITC management, 219
    Missing, Lost, and Stolen Reports were filed between October 7, 1999, and
    December 28, 2001, for a total value of $239,077. However, at the time of our
    review, only 11 of the reports valued at $21,131 were available for our review.
    None of the 11 reports held the employee responsible for the lost equipment. Of
    the 11 reports reviewed, 5 were for the Director, 2 were for the Deputy Director,
    and 4 were for 3 other employees.

    Five reports were prepared for equipment assigned to the Director. Three of the
    five were not brought to conclusion. The Deputy Director signed the other two
    reports as the responsible officer. These two reports indicated that the Deputy
    Director found no negligence involved in the loss. However, the ITC Director’s
    Missing, Lost, and Stolen Report, April 21, 2000, states that the Director left his
    Toshiba laptop (the one purchased at the request of his son) on a plane. The
    Deputy Director signed the Missing, Lost, and Stolen Report stating that there
    was no negligence. Additionally, the Deputy Director signed two of his own
    reports as the responsible officer, and found himself not negligent as well.

    Assurance. The ITC has no assurance that accountable property is accurately
    reflected on the property books. As previously discussed in this finding and in
    finding A, not all accountable property purchased by cardholders at the ITC goes
    through central receiving and receives a property tag; and property holders at the
    ITC did not make sure that the property in their control was accurately recorded
    or safeguarded, or that lost equipment was reported promptly.

Management Actions Taken
    After discussing the property accountability issue with ITC management, the ITC
    performed an inventory. The ITC management provided copies of the inventory
    log sheets used to record the items on hand at the ITC during inventory. This
    inventory conducted by ITC personnel after our visit showed that not all items
    were accounted for; some equipment did not have property tags; equipment was
    located at individuals’ homes; and some property was not inventoried.

    Items Not Included. Not all items at the ITC were accounted for during the
    inventory performed after the ITC had been informed of the property
    accountability problems. The ITC inventory listings were reviewed for the
    following specific items: Toshiba laptop computers (the brand purchased at the
    request of the Director’s son), 25 tool kits (purchased with the Director’s son as
    the point of contact), cell phones, pagers, EarthMate Global Positioning Systems
    (2), Garmin Global Positioning System, binoculars, heating/air conditioner unit,




                                         26
gas generator, cordless mice, and Palm Pilots. Of the above items, six Toshiba
laptop computers, one cell phone, one pair of binoculars, and three Palm Pilots
were listed on the property listings.

The two EarthMate Global Positioning Systems purchased during the
September 18, 2000, shopping trip were not on the property listings. When asked
about the EarthMate Global Positioning Systems, the ITC business manager
investigated the location of the items and stated that both of the systems had been
located (one was in micro repair and one was in the Director’s laptop bag) and
placed in the inventory pool. However, when the ITC performed an inventory
and provided the results of that inventory, the global positioning systems were not
included.

The business manager provided the disposition of the 13 Palm Pilots owned by
the ITC; however, only 3 appeared on the inventory listings. The three Palm
Pilots that appeared on inventory lists were not on the listings for the people the
business manager stated had the items. Neither the 25 tool kits, the heating/air
conditioner unit, gas generator, nor the cordless mice were on the inventory
listings.

Property Tags. A review of the ITC inventory listed showed that 259 items at
the ITC that were observed at the time of their inventory did not have property
tags. The items not tagged included televisions, flat screen televisions, cameras,
laptop computers, desktop computers, printers, facsimile machines, computer
servers, video cassette recorders, and a three-hole punch valued at $200. The
value of the equipment not tagged could not be determined because the ITC
inventory did not assign a monetary value to the equipment.

Equipment at Homes. The ITC-furnished inventory log sheets showed that
some equipment was located at the individuals’ home. The inventory logs
indicated that 16 individuals had items at home. However, according to the
Director, only senior managers and department heads had equipment at home. A
comparison of the names of individuals with equipment at home to the ITC
organizational chart showed that none of the 16 individuals were directors or
department heads. In fact, 3 of the 16 individuals were contractor personnel. As
previously discussed, all of the property passes issued by the ITC had expired
prior to 2002.

Property Not Inventoried. The ITC-furnished inventory log sheets showed that
some equipment was not inventoried. Seven inventory log sheets were started for
individuals that stated either that the equipment was not ITC equipment, or the
individual said not to inventory the equipment. Additionally, an inventory log
was started for the Director’s equipment. However, the person conducting the
inventory did not inventory any of the Director’s equipment but rather had listings
of what the Director had previously signed for printed out of the inventory
system. The inventory sheet was not signed; therefore, we believe that the ITC
staff did not inventory the Director’s property. An inventory performed by the
audit staff indicated that the Director had about $22,000 of computer equipment at
home in addition to the three laptops he had previously lost; and a television,
video cassette recorder, backup drive, Altec Lancing speaker, and Palm Pilot that
were not on his inventory listing.




                                     27
Conclusion
    Although the ITC personnel attempted to perform an inventory, it was not done
    properly. Some equipment was not inventoried, and ITC management did not
    report that they had performed a reconciliation of what was actually on hand to
    what was recorded in the property book. In order for property accountability to
    exist, an accurate inventory must be performed, periodic checks must be
    performed, and all transfers, turn-ins, and property passes must be promptly and
    properly recorded. Employees entrusted with Government property are
    responsible for ensuring that the property they have is safeguarded and accurately
    reflected in the property records. This is accomplished by checking the property
    tags of assigned equipment, and signing for the equipment received. If the
    equipment is not received, then the inventory list should either not be signed, or
    annotated as to what is incorrect and corrections made to the property system. An
    accountable property book officer is necessary to monitor the acquisition, storage,
    use, transfer, and disposal of property. The accountable property book officer is
    also required to evaluate culpability when property has been reported lost,
    damaged, misused, or stolen and recommend appropriate action, and assist in
    investigations to process reports of survey.


Management Comments on Finding B and Audit Response
    A summary of management comments on finding B and our response are in
    Appendix F.


Recommendations and Management Comments
    B. We recommend that the Commander, Space and Naval Warfare Systems
    Command:

    1. Direct the Information Technology Center to perform a wall-to-wall
    inventory and reconcile inventory discrepancies to create an accurate
    reflection of property located at the Information Technology Center.

    SPAWAR Comments. The Deputy Commander, SPAWAR concurred and
    stated that SPAWAR representatives would provide oversight to the wall-to-wall
    inventory and reconciliation effort to take place July 7-18, 2003. Successful
    completion of the inventory will address discrepancies not already researched and
    reconciled.

    2. Oversee the wall-to-wall inventory and inventory reconciliation process.

    SPAWAR Comments. The Deputy Commander, SPAWAR concurred and
    stated that SPAWAR representatives would provide oversight to the wall-to-wall
    inventory and reconciliation effort to take place July 7-18, 2003.

    3. Direct the Information Technology Center to include pilferable items on
    the property book as required in Space and Naval Warfare Systems
    Command instructions.



                                        28
SPAWAR Comments. The Deputy Commander, SPAWAR concurred and
stated that the Information Technology Center included pilferable items in its
property book and that SPAWAR will validate compliance during the
reconciliation process [July 7-18, 2003] to ensure an accurate and complete
property system.

4. Direct the Information Technology Center senior managers to require
employees with Government equipment at home to justify the need for the
equipment and obtain property passes or to return the equipment to the
Information Technology Center.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and
stated that Information Technology Center personnel have been directed to return
all Government-owned equipment from off-site locations. SPAWAR will
validate compliance during the reconciliation process [July 7-18, 2003] to ensure
an accurate and complete property system.

5. Direct the Information Technology Center to fill the vacant property book
officer position.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and
stated that the interim property manager was appointed property book officer in
writing on May 7, 2003.

6. Investigate the 29 lost items not reported as missing and the 7 improperly
prepared or approved Missing, Lost, and Stolen Reports. The reports for
items lost by the Director, Information Technology Center should be
investigated by other than Information Technology Center staff and should
be approved by senior officials at the Space and Naval Warfare Systems
Command.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and
stated that SPAWAR will ensure that the Information Technology Center
investigates and processes the DD Form 200s and forwards the forms and
documentation for lost and missing equipment that was in the custody of the
Director to SPAWAR for appropriate action. The target completion date is
December 31, 2003.

7. Require an independent review and verification of inventory listings every
6 months until such time the risk of fraud, waste, and mismanagement of
accountable property is no longer considered a high risk.

SPAWAR Comments. The Deputy Commander, SPAWAR concurred and
stated that SPAWAR will do an independent review of the inventory listings
every 6 months as long as deemed necessary.




                                    29
        Appendix A. Scope and Methodology
    We reviewed 84 of the 628 transactions processed via the purchase card for the
    ITC from September 2001 through March 2002, and additional transactions
    processed between May 1999 and September 2002 and questionable items
    discovered or brought to our attention. We reviewed cell phone statements
    available for the period of September 2001 through April 2002. We reviewed
    reports available from the bank’s purchase card management system. We also
    reviewed reports of agency program coordinator reviews and the report prepared
    by the SPAWAR Executive Director for Contracts. We interviewed personnel in
    the ITC, New Orleans and the Washington D.C. detachment. We reviewed
    processes used by the ITC to order, receive, and account for items purchased via
    the purchase card. In addition, we reviewed property accountability controls and
    performed property inventories for 14 individuals with 151 pieces of Government
    equipment. We also reviewed the inventory listings provided by the ITC
    management.

    We performed this audit from March 2002 through May 2003 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. To achieve the purchase card audit
    objective, we relied on computer-processed data from the bank’s purchase card
    management system to obtain merchants used by the ITC for July through
    September 2002. We also used the bank’s purchase card management system to
    determine the ITC organizational cycle limit and the annual expenditures. We
    attempted to verify the reliability of the data; however, the ITC could not provide
    us with the amount of expenditures via purchase card, or the information on the
    cycle limits because only information for the New Orleans site was available. To
    achieve the property accountability objective we used property records the ITC
    maintained via computer. The data were used as a starting point to verify the
    inventory records. The inventory records were found to be inaccurate. (See
    Finding B.)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage to
    improve processes and controls to reduce contract risk.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. Although we did
    not have an objective to review the management control program at the ITC, we
    discussed management controls and the management control program with the
    Director. The ITC had not performed a self-evaluation of management controls.



                                        30
    Adequacy of Management Controls. We identified material management
    control weaknesses for the ITC as defined by DoD Instruction 5010.40. The ITC
    had not implemented controls over purchase card use to prevent questionable and
    abusive purchases being made, ensure that items were purchased from proper
    sources, and ensure proper receipt of items purchased. Recommendations A.8.,
    A.9., A.13., A.14., and A.16., if implemented, will improve controls over the
    purchase card program and could result in potential monetary benefits of $95,671.
    Additionally, the ITC had not implemented controls over property accountability
    to ensure that Government assets were properly recorded in the property book.
    Recommendations B.1. through B.7., if implemented, will improve property
    accountability controls. A copy of the report will be provided to the senior
    official responsible for management controls in the Department of the Navy.

    Adequacy of Management’s Self Evaluation. The ITC had not performed a
    self-evaluation of management controls.


Prior Coverage
    Between FY 1996 and FY 2003, over 300 audit reports identified a wide range of
    implementation problems in the DoD purchase card program.

    General Accounting Office. The General Accounting Office (GAO) issued 12
    reports relating to the DoD purchase card program. The most recent reports are
    GAO Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the
    Air Force Vulnerable to Fraud, Waste, and Abuse,” December 20, 2002; GAO
    Report No. GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud and
    Abuse but Is Taking Action to Resolve Control Weaknesses,” September 27,
    2002; and GAO-02-732, “Purchase Cards: Control Weaknesses Leave Army
    Vulnerable to Fraud, Waste, and Abuse,” June 27, 2002. GAO reports can be
    accessed on the Internet at http://www.gao.gov.

    DoD Audit Organizations. The Inspector General of the Department of Defense
    (IG DoD) and audit organizations in the Military Departments and the Defense
    agencies issued more than 300 reports on purchase cards between FYs 1996 and
    2002. IG DoD Report No. D-2002-0029, “Summary of DoD Purchase Card
    Program Audit Coverage,” December 27, 2001, identified systemic issues with
    the program.

    IG DoD Report No. D-2002-075, “Controls Over the DoD Purchase Card
    Program,” March 29, 2002, identified specific risk factors that still existed in
    FY 2001 that required more proactive oversight. IG DoD Report No. D-2003-
    109, “Summary Report on the Joint Review of Selected DoD Purchase Card
    Transactions,” June 27, 2003, identified 182 cardholders through data mining that
    potentially used their cards inappropriately or fraudulently.

    Inspector General of the Department of Defense reports can be accessed on the
    Internet at http://dodig.osd.mil/audit/reports. The Military Departments and other
    Defense organizations’ reports can be viewed from the DoD Internet Web site at
    http://www.defenselink.mil/.




                                        31
           Appendix B. Supply Pictures
The top picture is of the Director’s supply cabinet; the bottom picture is of central
supply. In the Director’s supply cabinet, the top shelf and the area under the
bottom shelf are where some of the luggage is stored. However, the green
luggage set purchased during the September 18, 2001, shopping trip was not
located.




                                     32
        Appendix C. Shopping Trip Lists
                 List of Items Purchased by the Director
                on September 18, 2000, From Office Depot

       Description                Quantity                  Cost
Sponge, air                            2                   $ 9.98
Windows ME promo                       1                     49.90
CD Label Maker                          2                    39.98
Adapter, F4A612                        1                      6.99
Adapter, para                           1                    59.99
Cable, pcicrd                           2                    79.98
Kit, adapter                           1                     59.99
Port bdr flo                           2                     87.98
Luggage carrier                         2                    39.98
CA, Office                             2                    139.98
Windex                                 3                     11.97
Vanish                                 2                      6.98
Pledge                                 3                     17.97
Delorme Map                            1                     49.99
EarthMate GP                            2                   319.98
Organ notes                            11                    43.89
Tape, cassette                          2                    13.98
Envelope, clasp                         6                    53.94
Case, comp, wheeled                     1                    99.99
Comp case wheeled                       3                   299.97
Pen, retractable                       10                    79.90
Pen, rlr, need                          5                    39.95
Cleaner, quick                          2                     6.98
Lysol, foam                            4                     13.96
Planer, calendar, 01                    1                     8.19
Planer, w/notepad                       2                    45.98
Combo-parkre                           3                     14.97
Daily appointment book                 1                     22.99
Pledge, elect                           2                     9.98
Punch, 1 hole                          2                      1.98
Cleaner, Goo                           1                      3.99
Pen, Uniball                            5                    44.95
Highlighter, liq                       5                     24.95
Sharpie ultra                          2                      7.18
Marker, Expo or                        7                     48.93
Marker, Expo 2                         5                     19.95
File, rotary                           1                     22.99
Binder, kit                            2                     16.78
Ready index                            20                   139.80
Pen, roll-a-ball                        3                    44.97



                                  33
               List of Items Purchased by the Director
         on September 18, 2000, From Office Depot (cont’d)
        Description                Quantity                Cost
Spot shot                               6                        29.94
Folders, letter                         6                        17.94
Org, pkt a-z                            1                        14.99
Org, zip, tape                          2                        69.98
Org, cl, e-run                          1                        74.99
Mouse, Little                           3                        23.97
Mouse, Logitech                         1                        39.99
Battery, nigm, start                    1                        19.99
             Total                                           $ 2,404.57



                   List of Items Purchased by the Director
                 on September 18, 2001, From Office Depot
          Description                 Quantity                 Cost
Glass Cleaner                               2                 $ 13.98
Cleaner                                     1                    6.99
Soap, antibacterial                         1                    6.99
Soap, refill, hand                          1                    6.99
Portable 7.5” CD                            2                   79.98
IS 802.11 PC                                1                   49.99
IS 802.11 AC                                1                  299.99
CD-ROM, OD, 10 pack                         2                   69.98
Cartridge, Ink, SO20                        4                  103.96
Backpack, wheeled                           2                  119.98
Wheeled duffle                              5                   99.95
Glade                                       6                   23.94
Portfolio, wheeled                          1                   89.99
Comp, poly, expandable                      1                   39.99
APNR, CD, 72,b                              1                   19.99
Quicken 2002                                1                   59.99
Computer case, wheeled                      2                  199.98
Carry-on, expandable                        1                   39.99
Curve, flexible                             1                    5.99
Compass                                     1                   11.99
Pen, rlr, need                              8                   63.92
Lysol spray                                 5                   33.95
Spray bottle                                1                    3.99
21” Carry-on                                1                   99.99
Pullman upright                             1                   99.99
Carry-on, wheeled                           1                   79.99
Cover, report                               2                   16.78




                                   34
                 List of Items Purchased by the Director
          on September 18, 2001, From Office Depot (cont’d)
        Description                 Quantity             Cost
Pen, exact-it                         3                    18.87
Pencil, #2                            1                     2.99
Marker, Expo 2                        4                    31.96
Marker, Expo                          2                    15.98
Correction pen                        2                     3.98
Pen, precise                          2                    31.98
Cartridge, ink, C182                  1                    34.99
Refill, 2 ppd                         1                    23.99
Refill, 02, mo                        2                    10.78
Backpack, comp, wheeled               3                    119.97
Mouse, cordless                       2                    119.98
               Total                                   $ 2,164.71




                                35
Appendix D. Purchases Made at the Direction of
            the Director
   This is a picture of the bicycles that were purchased by cardholders at the
   Information Technology Center. The cost was $2,393 for the bicycles.




   This is a picture of one pair of the binoculars purchased for use at the Information
   Technology Center located in the Director’s office. The 10 pairs of binoculars
   cost $1,990.




                                        36
The following is a picture of the cat print that was matted and framed. The cost
of the matting and framing paid with the purchase card was approximately $55.




Picture from a Web site that offers the product of a Garmin Street Pilot III. This
same brand and model of global positioning system was purchased by the
Information Technology Center on the purchase card for the Director. The cost of
the unit and the accessories shown cost approximately $1,400.




                                    37
Appendix E. Pictures of Items not in Inventory
    This picture shows two of the Information Technology Center’s flat screen
    televisions. These televisions are not on the property book. We did not locate the
    purchasing documents for these televisions; therefore, we were unable to verify
    their cost.




    The following picture is of the gas generator purchased at Home Depot on the
    purchase card for $649. The generator had not been tagged and included on the
    property book.




                                        38
The following is a picture of the air conditioner/heating unit purchased at A.C.
Supply for $390. The unit was not tagged or included on the property records.




                                    39
Appendix F. Management Comments and
            Audit Response
SPAWAR Comment on Scope of Report. SPAWAR did not concur with the basis for
determining the questionable costs of the ITC purchase card program because SPAWAR
believes a distinction exists between making purchases and paying for purchases and if
that distinction were acknowledged the questionable nature of ITC purchases would be
diminished. SPAWAR indicated that improper payments made on existing contracts or
orders should not be reported because they were not within the scope of the audit.
Additionally, SPAWAR stated that improper payments that were not made with the
purchase card should not be reported.

Audit Response. The purchase card can be used to pay for goods and services up to a
predetermined limit and for payments against contracts. We cannot find guidance that
suggests that contract payments are exempt from purchase card controls. We included
questionable ITC transactions that were not made with the purchase card because they
were discovered based on our purchase card review and provide DoD and Navy officials
a full accounting of what we discovered.

SPAWAR Comment on Obtaining Fair and Reasonable Prices. SPAWAR stated that
cardholders did not have to check for price reasonableness with mandatory sources of
supply (Javits-Wagner-O’Day and Federal Prison Industries) or GSA because the cost of
checking could outweigh the benefits.

Audit Response. The SPAWAR response misstates Navy purchase card direction.
Navy policy requires cardholders to screen all requirements for their availability from
statutory sources such as Federal Prison Industries, the Javits-Wagner-O’Day (JWOD)
program, and the Document Automation and Production Service.

SPAWAR Comment on Purchasing Windows ME Operating System Software.
SPAWAR asserts that Windows ME software was purchased because numerous ITC
employees and customers use it and it was also purchased to determine compatibility
with other programs.

Audit Response. ITC computers used Windows NT as their standard operating system;
therefore, Windows ME would have been unnecessary for ITC computers. ITC
personnel responsible for maintaining information systems did not make this assertion to
us.

SPAWAR Comment on the Ribbon Cutting Ceremony. SPAWAR stated that the
May 1999 ceremony was a building dedication ceremony for the two predecessor
organizations, but that neither organization had Official Representation Funds.
SPAWAR also stated that the purchases were made using Chief of Naval Reserve Forces
funds, without obtaining the required pre-authorization from the Assistant for
Administration, Office of the Under Secretary of the Navy. SPAWAR concluded that the
expenditure of funds for the ceremony were appropriate.

Audit Response. The expenditure of funds without the required pre-authorization is
inappropriate.



                                           40
SPAWAR Comment on Windows 98. SPAWAR stated that the Windows 98 operating
system is an appropriate operating system for laptop computers. SPAWAR also indicates
that the ITC Director’s son was an ITC employee.

Audit Response. ITC personnel stated that Windows NT was the official operating
system used by the ITC. We could not determine how the two computers were being
used because they could not be located. Windows 98 may be an appropriate operating
system but it was not the system the ITC was using. The Director’s son recommended
purchasing the Windows 98 computers on June 2, 1999; however, ITC records indicate
the son was employed from June 7, 1999, to August 18, 1999, as an office automation
clerk. Thus the purchase was suggested prior to the son’s employment.

SPAWAR Comment on Spending Habits. SPAWAR stated the IG reached the wrong
conclusion that the ITC continued with inappropriate spending patterns with
inappropriate sources because purchases from Office Depot should be considered
compliant with JWOD requirements since Office Depot personnel will replace any item a
Federal customer orders with a JWOD item.

Audit Response. The Navy requires cardholders to screen all requirements for their
availability from statutory sources. Additionally, SPAWAR acknowledged that the ITC
did not in all cases make purchases from JWOD sources. As discussed in the SPAWAR
response, JWOD suggests using gsaadvantage.com or the DoD E-mall in addition to the
JWOD site. Therefore, we stand by the position in the report.

SPAWAR Comment on Government Property at Homes. SPAWAR stated that the
list of equipment for the Director was only partially correct and does not support a
$22,000 estimate. SPAWAR also stated that the Director did not have five laptops at his
home, but rather only had three laptops, one of which was used in an adjoining
conference room.

Audit Response. As stated in the report, the Director had Government equipment valued
at about $22,000 at his home. We do not vouch for the completeness of the ITC records;
however, these are the values of the equipment that was recorded. The equipment
consisted of five laptops, a printer, two monitors, a scanner, and two desktop computers.
When we requested to review the Director’s equipment he stated it was at his home. The
Director, himself, brought the five laptops for our review and produced pictures of the
other equipment.




                                           41
              Appendix G. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
     Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Commander, Space and Naval Warfare Systems Command
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Finance
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform



                                          42
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)

House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Information Policy, Intergovernmental
  Relations, and the Census, Committee on Government Reform




                                      43
44
Department of the Navy Comments




               45
46
47
48
     Final Report
       Reference




     Not included

     Not included

     Not included

     Not included




49
50
51
Final Report
Reference




See
Appendix F
Audit
Response




See
Appendix F
Audit
Response




               52
     Final Report
      Reference




     See
     Appendix F
     for Audit
     Response




53
Final Report
Reference




See Appendix
F Audit
Response




See
Appendix F
Audit
Response




Not included.


Not included.


Not included.




                54
     Final Report
      Reference




     Not
     included




     See
     Appendix F
     Audit
     Response




55
56
57
58
     Final Report
      Reference




      See
      Appendix F
      Audit
      Response




59
     Final
    Report
 Reference




See
Appendix F
Audit
Response




             60
61
Final
Report
Reference




            62
     Final Report
       Reference




      See Navy
      response
      page 47




63
64
65
66
     Final Report
     Reference




     See Appendix F
     Audit Response




67
68
69
70
71
72
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Joseph P. Doyle
Eric L. Lewis
Karen L. Jones
Jacqueline Vos
Kelly D. Garland
Gloria Burnett
Miwon Kim
Brian R. McNamara
Lisa Rose-Pressley
